FEDERAL PUBLIC DEFENDER
WESTERN DISTRICT OF OKLAHOMA
SUSAN M. OTTO
FEDERAL PUBLIC DEFENDER
Death Penalty Federal
Habeas Corpus Division:
Reply To: X
215 Dean A. McGee
Suite 707 Old Post Office Building
Oklahoma City, Oklahoma 73102
(405) 609-5975
Fax: (405) 609-5976

Main Office:
Reply To:
215 Dean A. McGee
Suite 109 Old Post Office Building
Oklahoma City, Oklahoma 73102
(405) 609-5930
Fax: (405) 609-5932

Federal Transfer Center
Parole Revocation Docket:
Reply To:
215 Dean A. McGee
Suite 109 Old Post Office Building
Oklahoma City, Oklahoma 73120
(405) 680-4047
Fax: (405) 680-4082

May 6, 2020

Mr. Scott Harris, Clerk
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Tommy Sharp, Petitioner v. Roderick Smith, Respondent,
Case No. 19-1106 (capital case)

Dear Mr. Harris:
Pursuant to Rules 30.4 and 15.3 of the Rules of the Supreme Court, undersigned
counsel for Respondent, Emma V. Rolls, hereby requests an extension of time of thirty
(30) days in which to respond to the Petition for Writ of Certiorari filed in the abovecaptioned case.
The Petitioner’s petition was filed March 2, 2020, and docketed March 9, 2020.
After already having been granted one extension of time, Respondent’s Brief in
Opposition is currently due May 26, 2020. Counsel for Respondent respectfully requests
an additional 30-day extension, which would render the brief due Thursday, June 25,
2020. The extension is justified for the following reasons.
Due to COVID-19, the Capital Habeas Unit of the Western District of Oklahoma
has implemented a telework policy, pursuant to W.D. Okla. General Order 20-5 (Court
Operation Protocols Under the Exigent Circumstances created by the COVID-19
Pandemic) filed March 13, 2020. Teleworking has complicated working conditions,
requiring increased time for the completion of tasks. This Court recognized the same in its
March 19, 2020 Order, in which the Court automatically extended the deadlines for
Petitions for Writs of Certiorari by 150 days.

In addition, Respondent’s counsel of record is the supervisor of the Capital Habeas
Unit of the Federal Public Defender for the Western District of Oklahoma, which entails
numerous administrative and supervisory functions, including an increased workload
litigating a challenge to the newly released lethal injection protocol for Oklahoma capital
inmates. Ms. Rolls is also co-counsel on a certiorari petition currently due May 25, 2020,
in Harmon v. Sharp, Supreme Court Case No. 19A1011.
Further, Ms. Rolls is the lead attorney in Tommy Sharp, Petitioner v. Jimmy Harris,
Respondent, Supreme Court Case No.19-1105, wherein the Brief in Opposition is due and
will be filed on Monday, May 11, 2020. The Petitions for Writ of Certiorari for Mr. Harris
and Mr. Smith were filed on the same day, despite Mr. Harris’s petition not being due for
over 20 days.
Thank you for your consideration.
Sincerely,

s/ Emma V. Rolls
Emma V. Rolls
Assistant Federal Public Defender
Western District of Oklahoma
215 Dean A. McGee Ave., Suite 707
Oklahoma City, Oklahoma 73102
(405) 609-5975 (telephone)
(405) 609-5976 (facsimile)
Emma_Rolls@fd.org
Counsel of Record for Roderick Smith,
Respondent

